Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 1

PUBLISH

FILED
United States Court of Appeals
Tenth Circuit

UNITED STATES COURT OF APPEALS

August 14, 2020

FOR THE TENTH CIRCUIT
_________________________________

Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
DONOVAN MUSKETT,

No. 17-2123
(D.C. Nos. 1:16-CV-00596-MCA-SMV &
1:13-CR-00980-MCA-1)
(D. N.M.)

Defendant - Appellant.
_________________________________
Appeal from the United States District Court
for the District of New Mexico
(D.C. No. 1:16-CV-00596-MCA-SMV)
_________________________________
Aric G. Elsenheimer, Assistant Federal Public Defender, Albuquerque, New Mexico, for
Defendant - Appellant.
Jennifer M. Rozzini, Assistant United States Attorney (John C. Anderson, United States
Attorney, with her on the brief), Albuquerque, New Mexico, for Plaintiff - Appellee.
_________________________________
Before BACHARACH, McHUGH, and EID, Circuit Judges.
_________________________________
McHUGH, Circuit Judge.
_________________________________
In this 28 U.S.C. § 2255 case, Donovan Muskett appeals the denial of his motion
to vacate his federal conviction for brandishing a firearm in furtherance of a crime of
violence on the basis of the Supreme Court’s decision in United States v. Davis, 139

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 2

S. Ct. 2319 (2019) (invalidating the residual clause in 18 U.S.C. § 924(c)’s definition of a
“crime of violence” as unconstitutionally vague).
The parties’ primary dispute on appeal is whether Mr. Muskett’s predicate federal
felony—assault with a dangerous weapon, 18 U.S.C. § 113(a)(3)—qualifies as a crime of
violence under the elements clause, 1 thereby rendering harmless the Davis defect in his
conviction. Mr. Muskett suggests that we must conduct this analysis using the law as it
existed at the time of his conviction because application of current law would violate due
process limits on the retroactive application of judicial decisions enlarging criminal
liability.
As explained below, our precedent compels the conclusion that assault with a
dangerous weapon is categorically a crime of violence under the elements clause. And we
conclude that at the time of his offense, Mr. Muskett had fair notice that § 924(c)’s
elements clause could ultimately be construed to encompass his commission of assault
with a dangerous weapon. We thus affirm the district court’s denial of Mr. Muskett’s
§ 2255 motion.

1

The government’s briefing, as well as some lower court decisions, refer to the
definition of “crime[s] of violence” set forth at § 924(c)(3)(A) as the “force clause” rather
than the “elements clause.” See, e.g., App. Vol. I, at 53 (“[T]he United States only needs
to establish that one of these predicates is a crime of violence under the force clause.”). In
this opinion, we follow the Supreme Court’s convention in Davis of referring to that
definition as the “elements clause.”
2

Appellate Case: 17-2123

Document: 010110391760

I.

Date Filed: 08/14/2020

Page: 3

BACKGROUND

A. Mr. Muskett’s Federal Conviction
On August 22, 2013, a grand jury returned a superseding indictment that charged
Mr. Muskett with four counts: assault with a dangerous weapon in Indian Country under
18 U.S.C. § 113(a)(3); aggravated burglary in Indian Country (based on New Mexico’s
aggravated burglary statute by way of the federal Assimilative Crimes Act); using,
carrying, possessing, and brandishing a firearm during and in relation to and in
furtherance of a crime of violence under 18 U.S.C. § 924(c); and negligent child abuse in
Indian Country.
On November 6, 2013, Mr. Muskett entered into a plea agreement pursuant to
Federal Rule of Criminal Procedure 11(c)(1)(C). 2 Under that agreement, Mr. Muskett
pleaded guilty only to the § 924(c) charge 3 (for using, carrying, possessing, and
brandishing a firearm in furtherance of a crime of violence), and the government agreed
to dismiss the three remaining counts. Pursuant to Rule 11(c)(1)(C), the parties agreed

2

Plea agreements reached under Rule 11(c)(1)(C) contain provisions requiring the
government to “agree that a specific sentence or sentencing range is the appropriate
disposition of the case, or that a particular provision of the Sentencing Guidelines, or
policy statement, or sentencing factor does or does not apply (such a recommendation or
request binds the court once the court accepts the plea agreement).”
3

To be convicted under § 924(c), a defendant need not be convicted of, or even
charged with, a predicate crime of violence. Rather, a violation of § 924(c) is complete
when a firearm is used, carried, possessed, or brandished in furtherance of a felony crime
of violence “for which the [defendant] may be prosecuted in a court of the United States.”
18 U.S.C. § 924(c)(1)(A) (emphasis added).
3

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 4

that, contingent on the district court’s acceptance of the plea agreement, Mr. Muskett
would be sentenced to an 84-month term of imprisonment.
On March 11, 2014, the district court accepted Mr. Muskett’s plea and sentenced
him to 84 months of imprisonment followed by a three-year term of supervised release. 4
B. Mr. Muskett’s § 2255 Proceedings
On June 16, 2016, just under a year after the Supreme Court invalidated the
Armed Career Criminal Act’s residual clause definition of “violent felony” in Johnson v.
United States, 135 S. Ct. 2551 (2015), Mr. Muskett filed a 28 U.S.C. § 2255 motion
seeking to vacate his conviction and to “set this matter for resentencing on the remaining
counts of the indictment.” App. Vol. I, at 31–42. Mr. Muskett argued that the residual
clause invalidated by Johnson was “materially indistinguishable from the residual clause
under [§] 924(c),” and thus § 924(c)’s residual clause was similarly unconstitutional.
App. Vol. I, at 34. Mr. Muskett further asserted that none of his predicate, dismissed
charges qualified as crimes of violence under § 924(c)’s elements clause, and thus his
conviction could not be sustained under that definition.
On June 2, 2017, the magistrate judge to whom Mr. Muskett’s § 2255 motion had
been referred issued proposed findings and a recommendation that Mr. Muskett’s motion

4

According to the Bureau of Prisons’ Inmate Locator, of which we may take
judicial notice, Mr. Muskett was released from prison on February 14, 2020. His release
did not moot his § 2255 motion challenging his conviction, however, because if he were
successful before us, his conviction would be vacated entirely, thereby eliminating his
three-year term of supervised release—which portion of his sentence also continues to
satisfy the “in custody” requirement of § 2255. See United States v. Cervini, 379 F.3d
987, 989 n.1 (10th Cir. 2004).
4

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 5

be denied. The magistrate judge concluded that even if § 924(c)’s residual clause was
invalid, Mr. Muskett’s commission of assault with a dangerous weapon (as criminalized
by 18 U.S.C. § 113(a)(3)) satisfied the elements clause.
Mr. Muskett timely objected to the magistrate’s conclusion that his conviction
could be sustained under the elements clause, but on July 6, 2017, the district judge
overruled that objection, adopted the magistrate’s findings and recommended disposition,
denied Mr. Muskett’s § 2255 motion, and declined to issue a Certificate of Appealability
(“COA”).
Following a timely notice of appeal, Mr. Muskett filed his opening brief in this
court in which he sought a COA. In March of 2019, the Clerk’s office entered an order
abating Mr. Muskett’s appeal pending resolution of our then-pending appeal in United
States v. Bowen, a case already abated pending the Supreme Court’s resolution of Davis.
In June of 2019, the Supreme Court issued its decision in Davis, invalidating
§ 924(c)’s residual clause as “unconstitutionally vague.” 5 139 S. Ct. at 2336. In
September of 2019, we issued our decision in Bowen, concluding that “Davis’s new rule

5

In its response brief, the government asserted, and then seemingly withdrew, a
challenge to the timeliness of Mr. Muskett’s § 2255 motion on grounds that he failed to
file a new motion after the Supreme Court issued its decision in Davis, and that he was
required to do so to avail himself of the limitations period prescribed by § 2255(f)(3). See
28 U.S.C. § 2255(f)(3) (providing a one-year limitations period that begins to run on “the
date on which the right asserted was initially recognized by the Supreme Court, if that
right has been newly recognized by the Supreme Court and made retroactively applicable
to cases on collateral review”). After the panel sought clarification at oral argument, the
government explicitly relinquished its right to invoke timeliness as a bar to Mr. Muskett’s
§ 2255 motion. Oral Argument at 38:32–38:42. We accept that concession.

5

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 6

is substantive and therefore retroactively applicable to cases on collateral review.” United
States v. Bowen, 936 F.3d 1091, 1100 (10th Cir. 2019).
Shortly after our decision in Bowen, we entered an order lifting the abatement in
this appeal and granting Mr. Muskett a broad COA encompassing the entirety of the
district court’s denial of his § 2255 motion. We further ordered supplemental briefing to
permit the parties to address the effect of Bowen and Davis on Mr. Muskett’s entitlement
to post-conviction relief.
II.

DISCUSSION

Under 28 U.S.C. § 2255(a),
A prisoner in custody under sentence of a court established by Act
of Congress claiming the right to be released upon the ground that the
sentence was imposed in violation of the Constitution or laws of the United
States, or that the court was without jurisdiction to impose such sentence, or
that the sentence was in excess of the maximum authorized by law, or is
otherwise subject to collateral attack, may move the court which imposed
the sentence to vacate, set aside or correct the sentence.
Pursuant to this statute, Mr. Muskett seeks to vacate his conviction based on the Supreme
Court’s invalidation of § 924(c)’s residual clause definition of a “crime of violence.” See
Davis, 139 S. Ct. at 2336. The government counters that Mr. Muskett’s predicate federal
felony—assault with a dangerous weapon—separately satisfies § 924(c)’s elements
clause definition, and thus any Davis infirmity in Mr. Muskett’s conviction is harmless.
“On appeal from the denial of a § 2255 motion, . . . we review the district court’s
findings of fact for clear error and its conclusions of law de novo.” United States v.
Snyder, 871 F.3d 1122, 1125 (10th Cir. 2017) (internal quotation marks omitted).
Because the parties’ dispute on appeal is purely legal, our review is de novo.
6

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 7

To prevail on appeal, Mr. Muskett must establish that his conviction cannot be
sustained under § 924(c)’s elements clause. 6 Under § 924(c)’s elements clause, an
offense is a crime of violence if it “has as an element the use, attempted use, or
threatened use of physical force against the person or property of another.” 18 U.S.C.
§ 924(c)(3)(A). To determine whether Mr. Muskett’s commission of assault with a
dangerous weapon qualifies as a crime of violence under the elements clause, we apply
the categorical approach. See Bowen, 936 F.3d at 1102. Under that framework, we must
first identify the minimum force required to commit the crime of assault with a dangerous
weapon, and then “determine if that force categorically fits the definition of physical
force.” United States v. Ontiveros, 875 F.3d 533, 535–36 (10th Cir. 2017) (quotation
marks omitted).
According to Mr. Muskett, we must decide whether his crime falls within the
elements clause based on the law as it existed at the time he committed it. To better
contextualize Mr. Muskett’s argument concerning retroactive application of current law,
we begin our analysis by tracing the development of precedent from this court and the

6

As with collateral attacks based on the Supreme Court’s invalidation of the
residual clause contained in the Armed Career Criminal Act, see Johnson v. United
States, 135 S. Ct. 2551 (2015), our analysis of a motion seeking relief on the basis of
Davis proceeds in two stages. “The first question asks, as a matter of historical fact,
whether the sentencing court relied on [§ 924(c)’s] residual clause” in accepting the plea
and imposing a sentence. See United States v. Lewis, 904 F.3d 867, 872 (10th Cir. 2018)
(emphasis in original). Only if the answer is yes do we proceed to the second stage, a
harmless error analysis that asks whether the movant’s predicate crime separately
qualifies under § 924(c)’s still-valid elements clause. See id. We conduct only the second
inquiry here because the government concedes Mr. Muskett has established that his
conviction rested on § 924(c)’s residual clause.
7

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 8

Supreme Court interpreting “physical force” as used in various federal statutes and the
United States Sentencing Guidelines (the “Guidelines”).
A. Changes in the Interpretation of “Physical Force”
Now, as in 2013 when Mr. Muskett brandished a firearm in furtherance of the
crime of assault with a dangerous weapon, the “force” component in “physical force”
refers to “violent force—that is, force capable of causing physical pain or injury to
another person.” Johnson v. United States (Curtis Johnson), 559 U.S. 133, 140 (2010).
As indicated by the presence of “capable” in that definition, violent force “does not
require any particular degree of likelihood or probability that the force used will cause
physical pain or injury; only potentiality.” Stokeling v. United States, 139 S. Ct. 544, 554
(2019). And now, as in 2013, “physical” refers to the type of force employed: “force
exerted by and through concrete bodies—distinguishing physical force from, for
example, intellectual force or emotional force.” Curtis Johnson, 559 U.S. at 138.
But while these definitions were static both before and after Mr. Muskett’s
conduct, our precedent addressing whether such “physical force” must be applied directly
to the person or property of another to qualify under the elements clause was not. That is,
whether persons employ “physical force” when they do not directly impart such force
onto the person or property of another (by, for example, poisoning another’s drink) has
undergone some revision, at least in this court, in the period following Mr. Muskett’s
offense.
In United States v. Perez-Vargas, 414 F.3d 1282 (10th Cir. 2005), overruled by
Ontiveros, 875 F.3d 533, we analyzed whether Colorado’s crime of third-degree assault
8

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 9

was categorically a crime of violence so as to qualify for a sentencing enhancement under
the Guidelines. 7 We explained that the predicate Colorado crime was committed when a
defendant “knowingly or recklessly causes bodily injury to another person or with
criminal negligence he causes bodily injury to another person by means of a deadly
weapon.” Id. at 1285 (quoting Colo. Rev. Stat. § 18-3-204). And we noted that
Colorado’s statute focused on the result of the defendant’s conduct (“bodily injury to
another”), and as such could be violated by “recklessly shooting a gun in the air to
celebrate, intentionally placing a barrier in front of a car causing an accident, or
intentionally exposing someone to hazardous chemicals.” Id. at 1286.
By contrast, we explained, the Guidelines’ definition of “crime of violence”
focused on the means “by which an injury occurs (the use of physical force).” Id. at 1285;
accord United States v. Rodriguez-Enriquez, 518 F.3d 1191, 1194 (10th Cir. 2008)
(“[T]he adjective physical must refer to the mechanism by which the force is imparted to
the ‘person of another.’”), overruled by Ontiveros, 875 F.3d 533. We thus concluded that
Colorado third-degree assault could be committed, as in one of the above hypotheticals,
without the use of direct physical force, and was therefore “not categorically a crime of
violence under [the Guidelines].” Perez-Vargas, 414 F.3d at 1287.

7

The Guidelines’ elements definition of “crime of violence” is indistinguishable
from the elements clause in § 924(c) except that the Guidelines’ definition is limited to
“physical force against the person of another,” U.S.S.G. § 2L1.2 cmt. n.2, whereas
§ 924(c) encompasses “physical force against the person or property of another,”
§ 924(c)(3)(A) (emphasis added).
9

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 10

In March of 2014—just one week after the sentencing court entered final judgment
on Mr. Muskett’s conviction—the Supreme Court issued its decision in United States v.
Castleman, 572 U.S. 157 (2014). In that case, the Court resolved a circuit split regarding
the level of force required to commit a “misdemeanor crime of domestic violence.” See
18 U.S.C. § 921(a)(33)(A)(ii). Specifically, the Court interpreted the term “physical
force” in that statute’s elements clause 8 to mean “the common-law meaning of ‘force.’”
Castleman, 572 U.S. at 168. And the Court reiterated its conclusion from Curtis Johnson
that “‘physical force’ is simply ‘force exerted by and through concrete bodies,’ as
opposed to ‘intellectual force or emotional force.’” Id. at 170 (quoting Curtis Johnson,
559 U.S. at 138). Under this expansive definition, “the common-law concept of ‘force’
encompasses even its indirect application” and will be satisfied “by administering a
poison or by infecting with a disease, or even by resort to some intangible substance,
such as a laser beam.” Id. (internal quotation marks omitted). “It is impossible,” the Court
concluded, “to cause bodily injury without applying force in the common-law sense.” Id.
In light of Castleman’s expansive interpretation of “physical force,” we overruled
Perez-Vargas’s direct-indirect distinction in Ontiveros, explaining that Perez-Vargas had

8

The elements clause definition of a domestic crime of violence is generally
similar to § 924(c)’s elements clause, at least insofar as its “physical force” requirement
is concerned. A “domestic crime of violence” is defined as an offense that “has, as an
element, the use or attempted use of physical force, or the threatened use of a deadly
weapon, committed by a current or former spouse, parent, or guardian of the victim, by a
person with whom the victim shares a child in common, by a person who is cohabiting
with or has cohabited with the victim as a spouse, parent, or guardian, or by a person
similarly situated to a spouse, parent, or guardian of the victim.”
10

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 11

“relied on reasoning that is no longer viable.” Id. at 536, 538 (“To the extent that PerezVargas holds that indirect force is not an application of ‘physical force,’ that holding is
no longer good law.”). We also expressly extended Castleman’s interpretation “to the
‘physical force’ requirement as used in a felony crime of violence.” Id. at 537.
In sum, after Ontiveros, an offense will qualify as a “crime of violence” under
§ 924(c)(3)(A) if it “has as an element the use, attempted use, or threatened use” of
physical force (as opposed to intellectual or emotional force), applied directly or
indirectly, that is capable of causing physical pain or injury to “the person or property of
another.” See § 924(c)(3)(A). With this definition in mind, we next analyze the minimum
force required to commit assault with a dangerous weapon, 18 U.S.C. § 113(a)(3).
B. The Elements of Assault with a Dangerous Weapon
Title 18, U.S. Code § 113(a) criminalizes eight variations of assault. In United
States v. Hathaway, 318 F.3d 1001, 1008 (10th Cir. 2003), we defined assault in § 113(a)
“as either an attempted battery or as placing another in reasonable apprehension of
immediate bodily harm.” Specifically, we explained, assault under § 113(a) is committed
by “either a willful attempt to inflict injury upon the person of another, or by a threat to
inflict injury upon the person of another which, when coupled with an apparent present
ability, causes a reasonable apprehension of immediate bodily harm.” 9 Id. (quotation

9

In his supplemental opening brief, Mr. Muskett suggests that assault under
§ 113(a) can be committed by a mere “offensive touching.” Aplt.’s Suppl. Br. at 17. But
we have long held that assault as used in § 113(a) requires an attempt or threat to “inflict
injury.” See, e.g., United States v. Joe, 831 F.2d 218, 220 (10th Cir. 1987).
11

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 12

marks omitted); accord United States v. Verwiebe, 874 F.3d 258, 261 (6th Cir. 2017)
(“[A]n individual may violate § 113 by (1) willfully attempting to inflict injury on
another person or (2) threatening to inflict injury on another person, causing a reasonable
apprehension of immediate bodily harm.”).
Subsection (a)(3)—assault with a dangerous weapon—adds two elements to the
above definition: first, the presence of a dangerous weapon, and second, the intent to do
bodily harm. 18 U.S.C. § 113(a)(3) (“Assault with a dangerous weapon, with intent to do
bodily harm, [is punishable] by a fine under this title or imprisonment for not more than
ten years, or both.”).
Combining the elements of assault with the additional elements prescribed by
subsection (a)(3), the crime of assault with a dangerous weapon is committed when a
person either (1) willfully attempts to inflict injury upon another person with a dangerous
weapon and with the intent to do bodily harm, or (2) threatens to inflict injury upon the
person of another with a dangerous weapon and with the intent and apparent present
ability to do so, thereby causing reasonable apprehension of immediate bodily harm.
Under this definition, assault with a dangerous weapon cannot be committed
without the “attempted use, or threatened use of physical force against the person or
property of another.” See 18 U.S.C. § 924(c)(3)(A). Stated simply, if one has attempted
or threatened to inflict injury upon another person (thereby committing federal criminal
assault), he has attempted or threatened physical force capable of causing physical pain or
injury.

12

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 13

Mr. Muskett maintains that a conviction under § 113(a)(3) can be sustained
without the use of “violent force—that is, force capable of causing physical pain or injury
to another person.” Curtis Johnson, 559 U.S. at 140. In support, he points to United
States v. Spotted Horse, 916 F.3d 686, 689 (8th Cir. 2019), an appeal from a jury verdict
convicting the defendant of three counts of assault with a dangerous weapon for beating
the victim with a plastic spoon, a plastic blind wand (with which he struck the victim
“numerous times across the back . . . as she screamed, cried, and begged him to stop”),
and a plastic hanger (with which he struck the victim “across the back until the hanger
broke”). The issues on appeal in Spotted Horse did not relate to the degree of force
required to commit assault with a dangerous weapon. But even with the decision’s sparse
description of the conduct, we easily conclude the force employed fell safely within the
definition of “physical force”—repeatedly striking another person across the back with
various plastic implements is plainly “capable of causing physical pain or injury.” Curtis
Johnson, 559 U.S. at 140.
Mr. Muskett’s arguments to the contrary appear to be premised on an overreading
of Curtis Johnson, suggesting that “physical force” requires resultant “serious physical
injury.” Aplt.’s Suppl. Br. at 18 (emphasis added). But no such degree-of-injury
requirement exists. Rather, a person exerts physical force when the force applied is
“capable of causing physical pain or injury to another person.” Curtis Johnson, 559 U.S.
at 140; see also Stokeling, 139 S. Ct. at 554 (“[Curtis] Johnson . . . does not require any
particular degree of likelihood or probability that the force used will cause physical pain
or injury; only potentiality.”).
13

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 14

In sum, the crime of assault with a dangerous weapon cannot be committed
without the use, attempted use, or threatened use of physical force capable of causing,
directly or indirectly, physical pain or injury. Mr. Muskett’s commission of that offense is
therefore categorically a crime of violence under § 924(c)’s elements clause.
C. Mr. Muskett’s Fair Notice Challenge
Mr. Muskett argues that we should decline to apply Ontiveros (in which we
overruled our previously recognized distinction between direct and indirect physical
force) because that case was decided after his commission of assault with a dangerous
weapon. To give it retroactive effect, Mr. Muskett suggests, would be to deprive him of
his due process right to have fair notice of what the law proscribes.
Mr. Muskett characterizes this challenge as an ex post facto attack. But the Ex
Post Facto Clause, appearing in Article I of the Constitution, “is a limitation upon the
powers of the Legislature and does not of its own force apply to the Judicial Branch of
government.” Marks v. United States, 430 U.S. 188, 191 (1977) (citation omitted); see
U.S. Const. art. I, § 9, cl. 3 (“No . . . ex post facto Law shall be passed.”). It is the Due
Process Clause of the Fifth Amendment that imposes “limitations on ex post facto
judicial decisionmaking.” Rogers v. Tennessee, 532 U.S. 451, 456 (2001).
Under the Due Process framework, “[i]f a judicial construction of a criminal
statute is unexpected and indefensible by reference to the law which had been expressed
prior to the conduct in issue, it must not be given retroactive effect.” Bouie v. City of
Columbia, 378 U.S. 347, 354 (1964) (internal quotation marks omitted). “[A]lthough
clarity at the requisite level may be supplied by judicial gloss on an otherwise uncertain
14

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 15

statute, due process bars courts from applying a novel construction of a criminal statute to
conduct that neither the statute nor any prior judicial decision has fairly disclosed to be
within its scope.” United States v. Lanier, 520 U.S. 259, 266 (1997) (citations omitted).
“[T]he touchstone is whether the statute, either standing alone or as construed, made it
reasonably clear at the relevant time that the defendant’s conduct was criminal.” Id. at
267.
Retroactive application of Castleman and Ontiveros does not offend these
principles for three reasons. First, at the broadest level, the enlargement effected by
Castleman—and Ontiveros in turn—is a far cry from the kind of “novel” constructions
found by the Supreme Court to deprive a defendant of fair notice. For example, in Bouie,
the defendants had been convicted of violating a state statute criminalizing “entry upon
the lands of another . . . after notice from the owner or tenant prohibiting such entry.” 378
U.S. at 349–50 (quoting the then-existing version of South Carolina’s criminal trespass
statute). But the defendants were convicted of that offense not for having entered
premises in the face of notice prohibiting entry, but rather for having remained on
premises after being told to leave. Id. After the conduct giving rise to defendants’
convictions, the South Carolina Supreme Court “construed the statute to cover not only
the act of entry on the premises of another after receiving notice not to enter, but also the
act of remaining on the premises of another after receiving notice to leave.” Id. at 350.
The retroactive application of this interpretation, the Supreme Court held,
“violated the requirement of the Due Process Clause that a criminal statute give fair
warning of the conduct which it prohibits.” Id. Crucial to the Court’s holding was the fact
15

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 16

that the statutory language had evinced no ambiguity—the statute was “on its face . . .
definite and precise.” Id. at 353; see Marks, 430 U.S. at 195 (explaining that in Bouie,
“[t]he statutory language . . . was ‘narrow and precise,’ and that fact was important to our
holding that the expansive construction adopted by the State Supreme Court deprived the
accused of fair warning” (quoting Bouie, 378 U.S. at 352)). Indeed, the Court noted, any
“uncertainty as to the statute’s meaning [wa]s itself not revealed until the [state supreme]
court’s decision.” Bouie, 378 U.S. at 352.
Compounding the notice deficiency was the fact that the enlarged construction,
“so clearly at variance with the statutory language, ha[d] not the slightest support in prior
South Carolina decisions.” Id. at 356. To the contrary,
in the 95 years between the enactment of the statute in 1866 and [the
expansive construction adopted in] 1961 . . . , the South Carolina cases
construing the statute uniformly emphasized the notice-before-entry
requirement, and gave not the slightest indication that the requirement
could be satisfied by proof of the different act of remaining on the land
after being told to leave.
Id. at 356–57.
By contrast, the language at issue here—“physical force”—cannot be said to have
been “on its face . . . definite and precise,” see id. at 353, nor was there an absence of
judicial decisions revealing the direct-indirect ambiguity. Indeed, as explained in more
detail below, federal courts have grappled with the uncertainty apparent on the face of the
statute and have arrived at conflicting conclusions as to whether “physical force”
encompasses indirect application. Thus, far from construing an unambiguous statute in
unexpected and indefensible ways, Castleman (and our resulting correction in Ontiveros)
16

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 17

merely “supplied . . . judicial gloss on an otherwise uncertain statute.” See Lanier, 520
U.S. at 266.
Second, the Supreme Court’s opinion in Curtis Johnson—decided nearly three
years before the conduct that forms the basis of Mr. Muskett’s conviction—provided
notice that the logic of Perez-Vargas rested on shaky foundations. In Curtis Johnson, the
Supreme Court undertook an exhaustive interpretive dive into “physical force” as used in
the Armed Career Criminal Act. Curtis Johnson, 559 U.S. at 138–42. The Court
explained that “physical” “plainly refers to force exerted by and through concrete
bodies—distinguishing physical force from, for example, intellectual force or emotional
force.” Id. at 138. And in Castleman, the Supreme Court indicated that this portion of
Curtis Johnson had, in part, foreclosed the logic we adopted in Perez-Vargas. 10
The District Court [in this case] . . . reason[ed] that one can cause bodily
injury “without the ‘use of physical force’”—for example, by “deceiving
[the victim] into drinking a poisoned beverage, without making contact of
any kind.” But as we explained in [Curtis] Johnson, “physical force” is
simply “force exerted by and through concrete bodies,” as opposed to
“intellectual force or emotional force.”
Id. at 170 (fourth alteration in original) (record citation omitted) (quoting Curtis Johnson,
559 U.S. at 138). Thus, although it did not specifically reject the direct-indirect
distinction accepted by Perez-Vargas the way Castleman ultimately did, Curtis Johnson
provided fair notice that “physical” did not refer to the physical relationship, as a

10

Although the Supreme Court decided Castleman after Mr. Muskett’s conduct, it
relied heavily on the reasoning of Curtis Johnson, which was available before the
conduct that forms the basis of the conviction here.
17

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 18

proximal matter, between the person imparting the force and the victim receiving it, but
was rather used to distinguish the type of force (i.e., neither intellectual nor emotional)
capable of causing physical pain or injury. And that construction provided sufficient
notice that “physical force” might include any exertion of physical force (directly or
indirectly) capable of causing physical pain or injury to another person, and that our
previous interpretation to the contrary was incorrect.
The dissent downplays the degree to which Curtis Johnson’s interpretation of
“physical force” cast doubt on the viability of our earlier opinions embracing the directindirect distinction, asserting that neither Curtis Johnson nor our earlier opinions
“need[ed]” to opine on the proper interpretation of “physical” as used in “physical force.
Dissent at 6–7. We respectfully disagree. In Rodriguez-Enriquez, 518 F.3d at 1191, 1194,
1195, we found the reasoning of Perez-Vargas “instructive” in reaching the conclusion
that “assault two (drugging a victim) under Colorado law” was not a crime of violence
because “injury effected by chemical action on the body (as in poisoning or exposure to
hazardous chemicals) should not be described as caused by physical force.” But aside
from the “instructi[on]” of Perez-Vargas, our conclusion in Rodriguez-Enriquez was
supported exclusively by an interpretation of “physical force” that was subsequently
flatly rejected by Curtis Johnson. Compare Rodriguez-Enriquez, 518 F.3d at 1194
(concluding that “the adjective physical must refer to the mechanism by which the force
is imparted to the ‘person of another’” because it “seems highly unlikely” that it “is being
used to distinguish the described force from a force generated by emotion, psychology,
religion, or rhetoric”), with Curtis Johnson, 559 U.S. at 138 (“The adjective ‘physical’
18

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 19

. . . . plainly refers to force exerted by and through concrete bodies—distinguishing
physical force from, for example, intellectual force or emotional force.”). Given the
centrality of our erroneous interpretation of “physical force” to the disposition of
Rodriguez-Enriquez, an individual seeking to assure himself that he could impart indirect
physical force capable of causing physical pain or injury upon another person without
triggering criminal liability under § 924(c) would be rightly concerned by Curtis
Johnson’s clear repudiation of our interpretation.
Indeed, at oral argument, Mr. Muskett focused our attention on the interpretation
adopted by Rodriguez-Enriquez, arguing he was entitled to rely on that opinion’s
“thorough analysis of . . . the term ‘physical force’” and its resulting conclusion that
“physical” does not refer to the effect of the force. Oral Argument at 4:30–4:45. We
might be inclined to agree if the interpretation we rejected in Rodriguez-Enriquez as
“highly unlikely” had not been subsequently adopted by the Supreme Court in Curtis
Johnson. See Rodriguez-Enriquez, 518 F.3d at 1194. Thus, even if the dissent is correct
that Mr. Muskett should be entitled to rely on settled in-circuit precedent notwithstanding
an out-of-circuit opinion resolving the categorical question against him, there was
nothing “settled” about Perez-Vargas and Rodriguez-Enriquez following the Court’s
unambiguous rejection of our interpretation of “physical force” in Curtis Johnson.
Third, the Supreme Court instructs that the existence of a circuit split on the scope
of a criminal statute is sufficient to supply defendants with fair notice that the broader
construction might ultimately be adopted, even when the defendant’s circuit has adopted
the more narrow interpretation. In United States v. Rodgers, 466 U.S. 475, 484 (1984),
19

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 20

after construing the reach of a criminal statute against the defendant and contrary to the
interpretation previously adopted by the circuit in which his case arose, the Supreme
Court concluded that “any argument . . . against retroactive application to him of our
present decision . . . would be unavailing since the existence of conflicting cases from
other Courts of Appeals made review of that issue by this Court and decision against the
position of the [defendant] reasonably foreseeable.” 11
In 2009—almost four years before the conduct giving rise to the instant
indictment—the Ninth Circuit decided United States v. Juvenile Female, 566 F.3d 943,
947 (9th Cir. 2009). In that case, after articulating the elements of assault with a
dangerous weapon consistent with our definition above, the Ninth Circuit applied the
categorical approach to conclude that “[a] defendant charged with . . . assault with . . . a
dangerous weapon[] must have always ‘threatened [the] use of physical force,’ because
he or she will have either made a ‘wil[l]ful attempt to inflict injury’ or a ‘threat to inflict
injury.’” Id. at 948 (fifth alteration in original) (first quoting 18 U.S.C. § 16(a); and then
quoting United States v. Chapman, 528 F.3d 1215, 1219–20 (9th Cir. 2008)).

11

The dissent relies on a law review article that advocates, as a normative matter,
“for an alternative to the Rodgers rule.” See Trevor W. Morrison, Fair Warning and the
Retroactive Judicial Expansion of Federal Criminal Statutes, 74 S. Cal. L. Rev. 455, 460
(2001). The article is no doubt well-written and informative, but our task in this case is to
apply the law as it has been announced by the Supreme Court, and as the article’s author
concedes, the law, as a descriptive matter, is “that an individual may rely on Supreme
Court precedent declaring his conduct to be outside the reach of a criminal statute, but
may not rely on settled court of appeals precedent saying the same thing.” Id.
20

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 21

The Ninth Circuit further rejected the argument we accepted in Perez-Vargas—
that a criminal statute focusing on the resulting “bodily injury” did not categorically
require physical force—reasoning that a defendant who committed an “assault resulting
in bodily injury, necessarily must have committed an act of force in causing the injury.”
Id. This is the precise reasoning adopted by the Supreme Court five years later in
Castleman. See Castleman, 572 U.S. at 170 (“It is impossible to cause bodily injury
without applying force in the common-law sense.”). And Castleman’s embrace of this
logic led us to overrule Perez-Vargas in Ontiveros. See Ontiveros, 875 F.3d at 538 (“The
[Castleman] Court specifically rejected the contention that ‘one can cause bodily injury
without the use of physical force—for example, by deceiving [the victim] into drinking a
poisoned beverage, without making contact of any kind.’” (second alteration in original)
(quoting Castleman, 572 U.S. at 170)).
Thus, the circuits were in disagreement as to whether “physical force”
encompassed indirect force when Mr. Muskett committed his crime. And the Supreme
Court’s decision in Castleman resolved this conflict against the position we adopted in
Perez-Vargas and Rodriguez-Enriquez, relying on its prior decision in Curtis Johnson—
also issued before Mr. Muskett’s crime. The incremental expansion of criminal liability at
issue here, then, falls neatly within Rodgers. Consequently, as in Rodgers, “any argument
. . . against retroactive application to [Mr. Muskett] of [the broader interpretation] . . . [is]
unavailing since the existence of conflicting cases from other Courts of Appeals made
review of that issue by th[e] Court and decision against the position of [Mr. Muskett]
reasonably foreseeable.” See Rodgers, 466 U.S. at 484.
21

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 22

The dissent takes issue with our premise that circuit disagreement existed at the
time of Mr. Muskett’s conduct. Instead, the dissent contends, there existed merely an
“intra-circuit conflict” in the Ninth Circuit by virtue of two discordant opinions bearing
on the direct-indirect force issue, neither of which possess precedential effect as a result
of that court’s anomalous rule that “the appropriate mechanism for resolving an
irreconcilable conflict is an en banc decision.” 12 Atonio v. Wards Cove Packing Co., 810
F.2d 1477, 1478–79 (9th Cir. 1987); see Dissent at 15–17. As a result, the dissent
continues, at the time of Mr. Muskett’s offense, the Ninth Circuit had no “binding
precedent” on the question of whether “physical force” must be imparted directly to
qualify under the elements clause. Dissent at 18.

12

In United States v. De La Fuente, 353 F.3d 766, 771 (9th Cir. 2003), the
defendant argued that mailing anthrax did not satisfy the elements clause at 18 U.S.C.
§ 16(a) because such conduct was not “forceful conduct, as the term ‘force’ ordinarily
would be understood.” The Ninth Circuit rejected that argument, explaining that
“[a]nthrax is a physical substance that causes injury to the human body, and [the
defendant’s] letters clearly threatened death by way of physical contact with anthrax
spores.” Id.
Four years later, in United States v. Beltran-Munguia, 489 F.3d 1042, 1046 (9th
Cir. 2007), the Ninth Circuit analyzed the minimum force required to commit an Oregon
rape offense. The Ninth Circuit began its analysis by noting that the plain language of the
Oregon statute did not contain an element of force: “Instead, the victim’s lack of consent
is the crime’s defining characteristic.” Id. at 1045. Given that feature, the court found
multiple ways in which the crime could be committed without satisfying the elements
clause: “a perpetrator could commit second-degree sexual abuse by surreptitiously adding
to his victim’s drink a drug that affects one’s judgment, thereby rendering her ‘mentally
incapacitated’” and incapable of providing consent, or “the victim could be ‘mentally
defective,’ yet fully physically cooperative.” Id. at 1046.
22

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 23

Even if we agreed that the Ninth Circuit’s decisions—involving different predicate
crimes than the one at issue here—created an actual intra-circuit split such that neither
those decisions nor Juvenile Female would be regarded as precedential in the Ninth
Circuit, we would still find that Juvenile Female provided some notice to Mr. Muskett.
The unambiguous holding in Juvenile Female answers the precise question presented by
this appeal: “A defendant charged with . . . assault with . . . a dangerous weapon[] must
have always ‘threatened [the] use of physical force,’ because he or she will have either
made a ‘wil[l]ful attempt to inflict injury’ or a ‘threat to inflict injury.” 566 F.3d at 948
(fifth alteration in original) (first quoting 18 U.S.C. § 16(a); and then quoting United
States v. Chapman, 528 F.3d 1215, 1219–20 (9th Cir. 2008)). That conclusion—
indistinguishable from the categorical result we reach today—stood in direct opposition
to what the dissent contends was the “unequivocal[]” law in this circuit at the time of Mr.
Muskett’s offense. Dissent at 2.
Thus, at the time of Mr. Muskett’s conduct, the Ninth Circuit had found Mr.
Muskett’s crime to fall categorically within the elements clause definition of a crime of
violence. By contrast, we had no direct precedent on this question, but an individual
could arguably interpret our decisions in Perez-Vargas and Rodriguez-Enriquez
(involving different predicate offenses but requiring that “physical force” be imparted
directly) as mandating a conclusion contrary to the Ninth Circuit’s. Even if Mr. Muskett
had discovered the allegedly irreconcilable intra-circuit split regarding direct-indirect
force in the Ninth Circuit—which apparently went entirely undetected by the lawyers
who litigated, and the jurists who decided, Juvenile Female—someone seeking to commit
23

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 24

assault with a dangerous weapon without triggering additional criminal liability under
§ 924(c) would be wisely concerned by the prospect that the Supreme Court might
ultimately side with the Ninth Circuit. And if that individual, as the dissent seems to
suggest, was sophisticated enough to extrapolate the reasoning of Perez-Vargas and
Rodriguez-Enriquez to his prospective commission of assault with a dangerous weapon,
he was also savvy enough to discern that the Supreme Court, in Curtis Johnson, had
flatly rejected the interpretation of “physical force” on which we had based our earlier
conclusions, thereby endorsing the Ninth Circuit approach.
Ultimately, however, our rejection of Mr. Muskett’s due process challenge does
not depend solely on the result of a forensic examination of Ninth Circuit precedential
development or whether that court would characterize any particular opinion as binding
precedent. We do not hold that circuit disagreement alone provided Mr. Muskett with fair
notice. The Constitution demands only that “the statute, either standing alone or as
construed, made it reasonably clear at the relevant time that the defendant’s conduct was
criminal.” Lanier, 520 U.S. at 267. We conclude it was reasonably clear that Mr.
Muskett’s conduct was criminal because at the time of his offense (1) the meaning of
“physical force” remained unclear and therefore amenable to subsequent judicial
interpretation; (2) the Court’s opinion in Curtis Johnson rejected the interpretation of
“physical force” on which we had relied in requiring direct physical force; and (3) the
Ninth Circuit had unequivocally found that Mr. Muskett’s predicate offense was
categorically a crime of violence under the elements clause.

24

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 25

For all these reasons, it was reasonably foreseeable at the time Mr. Muskett
brandished a firearm in furtherance of his commission of assault with a dangerous
weapon that such conduct could trigger criminal liability under § 924(c)’s elements
clause. As a result, the retroactive application of subsequent decisions so clarifying the
force requirement does not deprive Mr. Muskett of his due process right to have fair
notice of what the law proscribes.
III.

CONCLUSION

Because Mr. Muskett’s predicate offense of assault with a dangerous weapon
categorically requires the attempted or threatened use of physical force, and further
because Mr. Muskett had sufficient notice that brandishing a firearm in furtherance of
that offense could run afoul of § 924(c), we affirm the district court’s denial of his § 2255
motion.

25

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 26

United States v. Donovan Muskett, No. 17-2123
BACHARACH, J., dissenting.
We must ordinarily evaluate harmlessness under current law, United
States v. Lewis, 904 F.3d 867, 872 (10th Cir. 2018), and our current law
includes United States v. Ontiveros, 875 F.3d 533 (10th Cir. 2017). Under
Ontiveros, Mr. Muskett’s predicate offense (assault with a dangerous
weapon) would constitute a crime of violence under 18 U.S.C.
§ 924(c)(3)(A). But when Mr. Muskett committed the predicate offense,
our case law prohibited us from considering assault with a dangerous
weapon as a crime of violence under 18 U.S.C. § 924(c)(3)(A). We toppled
that case law in Ontiveros. Because Mr. Muskett couldn’t have foreseen
that change in our case law, retroactive application of Ontiveros would
violate Mr. Muskett’s right to due process. I thus respectfully dissent.
I.

The right to due process prevents retroactive application of
changes in the law without fair warning to the defendant.
The Constitution prohibits Ex Post Facto laws, which stiffen the

punishment beyond what the law provided when the crime was committed.
U.S. Const. art. I § 9, cl. 3; Peugh v. United States, 569 U.S. 530, 532–33
(2013). Although this prohibition does not apply to the judiciary, the Fifth
Amendment’s right to due process does. This right entitles defendants to
“fair warning . . . of what the law intends to do if a certain line is passed.”
United States v. Lanier, 520 U.S. 259, 265 (1997) (quoting McBoyle v.
United States, 283 U.S. 25, 27 (1931)). Fair warning exists only if

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 27

defendants could reasonably foresee the legal consequences of their
conduct. Id. at 270–71. To assess foreseeability, we consider whether a
judicial decision was “unexpected and indefensible by reference to the law
which had been expressed prior to the conduct.” Bouie v. City of Columbia,
378 U.S. 347, 354 (1964) (quoting Jerome Hall, General Principles of
Criminal Law 58–59 (2d ed. 1960)).
Certain types of judicial decisions may be considered “unexpected
and indefensible.” An example is a judicial decision that expansively
interprets a narrow, precise statute. That decision could be unexpected and
indefensible if the narrow statutory terms could have lulled potential
defendants “into a false sense of security.” Id. at 352. Judicial decisions
can also be unexpected and indefensible when they overrule a precedent.
See Marks v. United States, 430 U.S. 188, 195 (1977) (holding that a new
Supreme Court opinion overturning a previous standard was
unforeseeable); Lopez v. McCotter, 875 F.2d 273, 277–78 (10th Cir. 1989)
(holding that a New Mexico court’s decision to eliminate the bail
bondsman’s privilege was unforeseeable when the circumstances would not
have foreshadowed a change in the law).
II.

We torpedoed our precedent after Mr. Muskett had committed his
predicate offense.
When Mr. Muskett committed his offense in 2013, our precedent

unequivocally prevented us from categorically treating assault with a
2

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 28

dangerous weapon as a crime of violence. See United States v. Perez–
Vargas, 414 F.3d 1282, 1286–87 (10th Cir. 2005).
To categorically qualify as a crime of violence, an offense must
include as an element the use, threatened use, or attempted use of physical
force. 18 U.S.C. § 924(c)(3)(A). We considered a similar definition in
United States v. Perez–Vargas, 414 F.3d 1282 (10th Cir. 2005). There we
concluded that an offense constituted a crime of violence only if the
conduct necessarily involved the direct use of physical force. 414 F.3d at
1286–87. We applied this conclusion to determine that Colorado’s offense
of third-degree assault wasn’t a crime of violence, reasoning that the
offense could be complete even if the force had only been indirect. Id.
Based on this reasoning, we later held in United States v. Rodriguez–
Enriquez that Colorado’s offense of second-degree assault (drugging a
victim) wasn’t categorically classified as a crime of violence. 518 F.3d
1191, 1194–95 (10th Cir. 2008).
Unlike our court, the Supreme Court had not yet addressed whether a
crime of violence needed to involve the direct use of physical force. But
the Court had considered the definition of “physical force” in Johnson v.
United States, addressing the meaning of the term “violent felony.” 559
U.S. 133, 140 (2010). There the Court held that the physical force must be
capable of causing physical pain or injury. Id.

3

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 29

After Mr. Muskett committed his offense, our governing precedents
began to unravel, starting with United States v. Castleman, 572 U.S. 157
(2014). There the Supreme Court considered the definition of physical
force in the context of misdemeanor crimes of domestic violence. In this
context, the Court used the common-law definition of “physical force”
rather than the narrower definition in Johnson. 572 U.S. at 163–65. Using
the broader common-law definition, the Court concluded that intentionally
or knowingly causing injury to a household member constituted a
misdemeanor crime of domestic violence because this crime necessarily
involved the use of common-law force. Id. at 169. But the Court expressly
declined to decide whether the intentional or knowing causation of bodily
injury necessarily involved the use of “physical force” as this term was
defined in Johnson. Id. at 167.
Following Castleman, we recognized in United States v. Ontiveros
that Perez–Vargas had been overruled. 875 F.3d 533, 536 (10th Cir. 2017).
In Ontiveros, we considered whether Colorado’s offense of second-degree
assault was a crime of violence. 875 F.3d at 535–36. In deciding that issue,
we held that Perez–Vargas was no longer good law. We noted that
Castleman had concluded that a defendant’s intentional or knowing
causation of bodily injury necessarily involved common-law force. Id. at
536. Although Castleman hadn’t decided whether intentional or knowing
causation of bodily injury involved physical force under the Johnson test,
4

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 30

we relied in Ontiveros on the combination of reasoning in Johnson and
Castleman. Id. at 538.
III.

Applying Ontiveros denies due process to Mr. Muskett because
Ontiveros was unforeseeable when Mr. Muskett committed his
offense.
Mr. Muskett argues that applying Ontiveros to his case would violate

the right to due process because he couldn’t have foreseen the subsequent
sea change in our precedent when he committed his offense. I agree. 1
The government contends that Mr. Muskett could have anticipated
the change based on two circumstances:
1.

the Supreme Court’s opinion in Johnson and

2.

the existence of a circuit split.

But neither circumstance made the change foreseeable.

1

The majority concludes that
•

applying Ontiveros to Mr. Muskett’s offense would not violate
due process because the statute was ambiguous (unlike the
narrow and precise statute at issue in Bouie) and

•

judicial opinions had commented on the ambiguity.

Majority Op. at 16–17. But a judicial opinion expansively interpreting a
narrow and precise statute is just one example of a potentially
unforeseeable change in the law; another example is a court’s decision to
overrule its own precedent. See Part I, above.

5

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 31

The government points to the Supreme Court’s opinion in Johnson,
which preceded Mr. Muskett’s offense. In the government’s view, Johnson
foreshadowed the eventual overruling of Perez–Vargas. 2
Agreeing with the government, the majority relies on one sentence
from Johnson, which stated that physical force is “force exerted by and
through concrete bodies” rather than “intellectual force or emotional
force.” Majority Op. at 17 (quoting Johnson v. United States, 559 U.S.
133, 138 (2010)). The majority concludes that this sentence rejected our
previous opinion, United States v. Rodriguez–Enriquez, where we had said
that it “seems highly unlikely” that the adjective “physical” “is being used
to distinguish the described force from a force generated by emotion,
psychology, religion, or rhetoric.” 518 F.3d 1191, 1194 (10th Cir. 2008).
According to the majority, the conflict between Johnson and
Rodriguez–Enriquez should have alerted Mr. Muskett to the possibility that
Perez–Vargas might eventually be overruled. Majority Op. at 18–19. But in
the absence of 20–20 hindsight, no one in Mr. Muskett’s position could
have anticipated a possible overruling of Perez–Vargas.

2

The government also argues that Mr. Muskett obtained fair warning
under the residual clause. But the Supreme Court held that the residual
clause was unconstitutionally vague, and vague laws don’t provide fair
warning. United States v. Davis, 139 S. Ct. 2319, 2325, 2336 (2019); see
also United States v. Lanier, 520 U.S. 259, 266 (1997) (stating that the
vagueness doctrine is a manifestation of the “fair warning requirement”).
So the residual clause could not have provided Mr. Muskett with fair
warning.
6

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 32

The majority elevates the importance of our “interpretation of the
adjective ‘physical’ in Rodriguez-Enriquez.” Majority Op. at 19. In my
view, the cited language was immaterial to the holding in RodriguezEnriquez. There the question was whether Colorado’s offense of seconddegree assault necessarily involved physical force, as required for a crime
of violence. United States v. Rodriguez–Enriquez, 518 F.3d 1191, 1194–95
(10th Cir. 2008). Because Colorado’s offense of second-degree assault
could consist of surreptitiously drugging a victim, the panel had to decide
whether “physical force” could include chemical force (a type of indirect
physical force). Id. So the panel didn’t need to decide whether the
adjective “physical” distinguished physical force from force through
emotion, psychology, religion, or rhetoric. Id. at 1194.
In Johnson, too, the issue had nothing to do with whether the
adjective “physical” distinguished physical force from force generated
through emotion, psychology, religion, or rhetoric. 559 U.S. at 138–39.
The issue there was whether “physical force” could consist of a slight
touching, which would constitute physical force under the common-law
definition. Id. at 139. So the Supreme Court had to decide between the
common-law definition of “physical force” and a narrower meaning. Id. at
140.
The holdings in Rodriguez–Enriquez and Johnson didn’t address
whether the adjective “physical” would distinguish physical force from
7

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 33

force generated through emotion, psychology, religion, or rhetoric. So it’s
hard to imagine how even a sophisticated legal scholar could have
predicted the overruling of Rodriguez–Enriquez from the single line in
Johnson.
But let’s assume, for the sake of argument, that Mr. Muskett should
have interpreted Johnson to foreshadow the eventual rejection of a
sentence in Rodriguez–Enriquez about the likely meaning of the adjective
“physical.” Even then, Johnson said nothing to suggest the overruling of
Perez–Vargas or its holding that third-degree assault wasn’t a crime of
violence.
Indeed, Johnson might have given Mr. Muskett greater comfort that
his offense was not categorically a crime of violence. Johnson had
narrowly defined physical force, requiring that physical force be capable of
causing physical pain or injury. Johnson v. United States, 559 U.S. 133,
140 (2010). Based on the Court’s choice of this definition over the broader
common-law definition, Mr. Muskett could have reasonably believed that
the Supreme Court was narrowing the definition of physical force. In fact,
the Supreme Court concluded in Johnson that an offense of simple battery
didn’t necessarily involve the use of physical force, so that offense wasn’t
a crime of violence. Id. at 145.
In the aftermath of Johnson, other courts didn’t treat the opinion as a
rejection of the distinction between direct and indirect uses of force. To
8

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 34

the contrary, courts continued to distinguish between the direct and
indirect uses of force. See United States v. Torres–Miguel, 701 F.3d 165,
168–69 (4th Cir. 2012) (concluding that for a state offense to constitute a
crime of violence, the offense must require the “use or threatened use of
violent force” rather than “simply result in physical injury or death”); 3
United States v. Andino–Ortega, 608 F.3d 305, 311 (5th Cir. 2010) (stating
that Texas’s offense of injury to a child could be committed “without the
use of physical force by putting poison or another harmful substance in a
child’s food or drink”); 4 United States v. Castleman, No. 2:08-cr-20420JPM-cgc, 2010 WL 11519878, at *3 (W.D. Tenn. Apr. 30, 2010)
(unpublished) (holding that offenses under Tennessee’s domestic-assault
statute did not constitute crimes of violence because the offenses could be
committed by “deceiving [the victim] into drinking a poisoned beverage”).
Given the continuing distinction between direct and indirect force, Mr.
Muskett would have needed extraordinary prescience to foresee Johnson’s
impact on Perez–Vargas. See Devine v. N.M. Dep’t of Corr., 866 F.2d 339,
345 (10th Cir. 1989) (concluding that a judicial decision was unforeseeable

3

The Fourth Circuit later recognized that Torres–Miguel had been
abrogated by Castleman. United States v. Allred, 942 F.3d 641, 653 (4th
Cir. 2019).

The Fifth Circuit overruled this part of the opinion after the Supreme
Court’s decision in Castleman. United States v. Reyes–Contreras, 910 F.3d
169, 182 n.27 (5th Cir. 2018) (en banc).
4

9

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 35

when “[e]ven an in-depth inquiry by a dedicated and educated student of
. . . law would have revealed nothing to foreshadow the . . . opinion”).
Even after Castleman, Johnson’s impact on our opinion in Perez–
Vargas was not entirely clear. Castleman concluded that indirect assaults,
such as poisoning a victim, would involve physical force. See Part II,
above. But Castleman reached this conclusion by relying heavily on the
common-law definition of physical force. See United States v. Castleman,
572 U.S. 157, 170 (2014) (explaining that “the common-law concept of
‘force’ encompasses even its indirect application”); see also Part II, above.
And Castleman expressly refrained from deciding whether indirect assaults
would meet Johnson’s elevated standard for physical force. 572 U.S. at
167. By refraining from a decision on this issue, the Castleman Court
declined to say whether Johnson’s requirement of physical force could be
satisfied when the force is indirect. And, of course, Mr. Muskett had
committed his offense before the Supreme Court decided Castleman. So
Mr. Muskett would have needed uncanny legal expertise and foresight to
anticipate the eventual unravelling of Perez–Vargas based on the Supreme
Court’s opinion in Johnson.
The government also argues that Ontiveros was foreseeable based on
a supposed circuit split at the time of Mr. Muskett’s offense. The majority
agrees, holding that any circuit split on the scope of a criminal statute
would provide notice that the court might broaden its interpretation of
10

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 36

crimes of violence. Majority Op. at 19-20. I respectfully disagree for two
reasons:
1.

The existence of a circuit split wouldn’t have provided fair
warning because our precedent in 2013 had clearly prevented
categorical treatment of Mr. Muskett’s offense as a crime of
violence.

2.

No circuit split existed in 2013.

In holding that a circuit split can provide fair warning, the majority
relies on an isolated sentence from a 1984 Supreme Court opinion, United
States v. Rodgers, 466 U.S. 475 (1984). In Rodgers, the Supreme Court
overruled an Eighth Circuit opinion that would have prevented criminal
liability, choosing instead to adopt a broader construction. 466 U.S. at
478–79. In a single sentence, the Court commented: “[A]ny argument by
respondent against retroactive application to him of our present decision
. . . would be unavailing since the existence of conflicting cases from other
Courts of Appeals made review of that issue by this Court and decision
against the position of the respondent reasonably foreseeable.” Id. at 484.
The majority interprets this sentence to mean that a circuit split
always provides fair warning. But this interpretation disregards the
context. Rodgers didn’t even mention the right to due process or the fairwarning test, and the Supreme Court has never cited Rodgers for a holding
on due process.

11

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 37

To the contrary, the Supreme Court later clarified that a circuit split
is simply one consideration bearing on the existence of fair warning and is
not dispositive on its own. See United States v. Lanier, 520 U.S. 259, 269
(1997) (explaining that “disparate decisions in various Circuits might leave
the law insufficiently certain . . . [but] such a circumstance may be taken
into account in deciding whether the warning is fair enough”). And the
Supreme Court has noted that a defendant need not stay apprised of legal
developments in other jurisdictions. See Rogers v. Tennessee, 532 U.S.
451, 464 (2001) (“Due process, of course, does not require a person to
apprise himself of the common law of all 50 States in order to guarantee
that his actions will not subject him to punishment in light of a developing
trend in the law that has not yet made its way to his State.”). If Mr.
Muskett didn’t need to stay apprised of developments in other
jurisdictions, why couldn’t he rely with confidence on our precedential
opinion in Perez–Vargas?
After all, even when the conduct involves only civil liability, the
defendant can rely on our precedent irrespective of contrary case law in
other jurisdictions. See Trevor W. Morrison, Fair Warning and the
Retroactive Judicial Expansion of Federal Criminal Statutes, 74 S. Cal. L.
Rev. 455, 487 (2001) (“[N]either the Supreme Court nor any federal court
of appeals has ever held that liability may attach where settled in-circuit

12

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 38

precedent clearly holds the conduct in question to be lawful.”). 5 Although a
circuit split could spur Supreme Court review, no court has ever questioned
the ability of defendants to rely on their own in-circuit precedent. See id.
at 488 (“[I]t seems clear that in cases where in-circuit precedent squarely
supports the defendant by holding his conduct to be lawful, the defendant
will always enjoy immunity without regard to the law in other circuits.”).
If a public official can’t incur civil liability despite the possibility
that the Supreme Court could overrule our precedent, how could a court
subject a criminal defendant to harsher punishment based on changes in the
law after he’d already committed his crime? “If the defendant’s reasonable
belief that his conduct was lawful is adequate to immunize him from civil
suit, it would be anomalous at best nevertheless to subject him to criminal
prosecution for the same conduct.” Seth P. Waxman & Trevor W.
Morrison, What Kind of Immunity? Federal Officers, State Criminal Law,
and the Supremacy Clause, 112 Yale L.J. 2195, 2213 (2003).

5

The majority questions my reliance on Dean Morrison’s article
because our task is to apply governing law rather than opine on what the
governing law should be. Majority Op. at 20 n.11. I too am focusing on
what the law is, not what it should be. In my view, the existing law does
not incongruously permit criminal liability for acting legally under circuit
precedent when conformity to circuit precedent couldn’t even trigger civil
liability. See United States v. Lanier, 520 U.S. 259, 270–71 (1997); see
p. 14, below.
13

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 39

Recognizing this potential anomaly, the Supreme Court has
highlighted the similarity in the tests for civil and criminal liability:
In the civil sphere, we have explained that qualified
immunity seeks to ensure that defendants “reasonably can
anticipate when their conduct may give rise to liability,” by
attaching liability only if “[t]he contours of the right [violated
are] sufficiently clear that a reasonable official would
understand that what he is doing violates that right.” So
conceived, the object of the “clearly established” immunity
standard is not different from that of “fair warning” . . . . The
fact that one has a civil and the other a criminal law role is of no
significance; both serve the same objective, and in effect the
qualified immunity test is simply the adaptation of the fair
warning standard to give officials (and, ultimately, governments)
the same protection from civil liability and its consequences that
individuals have traditionally possessed in the face of vague
criminal statutes. To require something clearer than “clearly
established” would, then, call for something beyond “fair
warning.”
United States v. Lanier, 520 U.S. 259, 270–71 (1997) (citations omitted).
Given the similarity in the tests for civil and criminal liability, the
Supreme Court has recognized the central role of our precedent in guiding
the behavior of not only civil defendants but also criminal defendants. For
example, in Marks v. United States, the Court held that the right to due
process prevents retroactive application of a new Supreme Court opinion
that departs significantly from a prior Supreme Court pronouncement. 430
U.S. 188, 194–97 (1977).
Marks addressed retroactive application of a case that had overruled
an opinion by the Supreme Court rather than our court. Id. But we have
interpreted Marks more broadly, stating that “Marks held that a court
14

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 40

overruling its own precedent is unforeseeable for due process purposes.”
Devine v. N.M. Dep’t of Corr., 866 F.2d 339, 345 (10th Cir. 1989). Based
on this interpretation of Marks, we have held that the right to due process
prohibited retroactive application of a state-court decision issued after the
defendant had committed his crime. Lopez v. McCotter, 875 F.2d 273, 277–
78 (10th Cir. 1989).
This holding prevents retroactive application here, for “the existence
of settled in-circuit precedent holding a defendant’s conduct to be lawful
would appear to mean it was not ‘reasonably clear’ that his conduct was
unlawful when undertaken.” Trevor W. Morrison, Fair Warning and the
Retroactive Judicial Expansion of Federal Criminal Statutes, 74 S. Cal. L.
Rev. 455, 457 (2001). So the existence of settled in-circuit precedent
prevented fair warning to Mr. Muskett from the eventual thrashing of our
precedent.
But even if Mr. Muskett could have obtained fair warning from a
circuit split, none existed in 2013. Three other circuits had held, as we
had, that crimes of violence required the direct use of physical force. See
Chrzanoski v. Ashcroft, 327 F.3d 188, 195–96 (2d Cir. 2003); United States
v. Torres–Miguel, 701 F.3d 165, 168–69 (4th Cir. 2012); United States v.
Villegas–Hernandez, 468 F.3d 874, 879 (5th Cir. 2006).

15

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 41

The government contends that the Ninth Circuit had created a circuit
split prior to 2013. I disagree. The Ninth Circuit’s opinions contradicted
each other, offering no binding precedent that could create a circuit split.
In 2003, the Ninth Circuit held that mailing anthrax was a crime of
violence. United States v. De La Fuente, 353 F.3d 766, 771 (9th Cir. 2003).
Rejecting the defendant’s suggestion that mailing anthrax did not involve
the use of physical force, the court explained that “[a]nthrax is a physical
substance that causes injury to the human body, and [the defendant’s]
letters clearly threatened death by way of physical contact with anthrax
spores.” Id.
But roughly four years later, the Ninth Circuit concluded that a crime
of violence hadn’t taken place because offenders could commit seconddegree sexual abuse without directly using any physical force. United
States v. Beltran–Munguia, 489 F.3d 1042, 1046 (9th Cir. 2007). For
example, a perpetrator could commit the offense by surreptitiously
drugging the victim, rendering her unable to consent. Id. This conclusion
contradicted the court’s earlier conclusion on whether chemical force could
constitute physical force. Compare De La Fuente, 353 F.3d at 771 (holding
that poisoning a victim was a crime of violence), with Beltran–Munguia,
489 F.3d at 1046 (holding that drugging a victim was not a crime of
violence).

16

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 42

About two years later, the Ninth Circuit decided United States v.
Juvenile Female, holding that assault involving a deadly or dangerous
weapon or resulting in bodily injury was a crime of violence. 566 F.3d 943,
947 (9th Cir. 2009). According to the majority, Juvenile Female “rejected
the argument we accepted in Perez-Vargas.” Majority Op. at 21. I
respectfully disagree. Unlike Perez-Vargas, Juvenile Female never
discusses whether crimes of violence require the direct use of force. 6 In the
absence of any discussion, the Ninth Circuit’s internal division remained.
See United States v. Corrales–Vazquez, 931 F.3d 944, 954 (9th Cir. 2019)
(“[C]ases are not precedential for propositions not considered or for
questions which merely lurk in the record.” (internal quotation marks and
citations omitted)).
The Ninth Circuit thus had an intra-circuit conflict. Under Ninth
Circuit precedent, an intra-circuit conflict can be resolved only through an
en banc proceeding. Atonio v. Wards Cove Packing Co., 810 F.2d 1477,
1478–79 (9th Cir. 1987) (en banc). Until the court convenes en banc,
however, the law in the Ninth Circuit remains unsettled:

6

In Juvenile Female, neither party argued that crimes of violence
require the direct use of force. See Br. for Appellant, United States v.
Juvenile Female, 566 F.3d 943 (9th Cir. 2009) (No. 07-50549); Br. for
Appellee, United States v. Juvenile Female, 566 F.3d 943 (9th Cir. 2009)
(No. 07-50549). It is thus unsurprising that the court did not address this
issue. See United States v. Sainz, 933 F.3d 1080, 1087 (9th Cir. 2019)
(explaining that courts “normally decide only questions presented by the
parties”) (quoting Greenlaw v. United States, 554 U.S. 237, 244 (2008)).
17

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 43

An intra-circuit conflict can only be resolved by the court en
banc. Until the en banc court is able to address the issue, we
must make the unsatisfactory choice between two opposing lines
of authority, neither of which has an unimpaired claim to being
the law of the circuit.
Greenhow v. Sec’y of Health & Human Servs., 863 F.2d 633, 636 (9th Cir.
1988) (citations omitted), overruled in part on other grounds by United
States v. Hardesty, 977 F.2d 1347, 1348 (9th Cir. 1992) (en banc) (per
curiam). 7 So the Ninth Circuit had no binding precedent conflicting with
Perez–Vargas when Mr. Muskett committed his offense.
* * *
In summary, neither a circuit split nor the Supreme Court’s opinion
in Johnson provided fair warning to Mr. Muskett that his prior offense
could constitute a crime of violence. So applying Ontiveros would violate
Mr. Muskett’s right to due process.
IV.

Conclusion
Based on our governing precedent at the time of the predicate offense

(Perez–Vargas), we cannot retroactively apply Ontiveros without violating
Mr. Muskett’s right to due process. I would thus apply Perez–Vargas.

7

The Ninth Circuit’s rule here differs from most circuits’ rules, which
require adherence to the earlier opinion in an intra-circuit conflict. See
McMellon v. United States, 387 F.3d 329, 333 (4th Cir. 2004) (collecting
cases from circuits that require adherence to the earlier of two conflicting
panel opinions).
18

Appellate Case: 17-2123

Document: 010110391760

Date Filed: 08/14/2020

Page: 44

Under Perez–Vargas, Mr. Muskett’s offense of assault with a dangerous
weapon is not a crime of violence.

19

Appellate Case: 17-2123

Document: 010110391761

Date Filed: 08/14/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303) 844-3157
Christopher M. Wolpert
Clerk of Court

August 14, 2020

Jane K. Castro
Chief Deputy Clerk

Mr. Aric Grant Elsenheimer
Office of the Federal Public Defender
District of New Mexico
506 South Main Street, Suite 400
Las Cruces, NM 88001
RE:

17-2123, United States v. Muskett
Dist/Ag docket: 1:16-CV-00596-MCA-SMV, 1:13-CR-00980-MCA-1

Dear Counsel:
Enclosed is a copy of the opinion of the court issued today in this matter. The court has
entered judgment on the docket pursuant to Fed. R. App. P. Rule 36.
Pursuant to Fed. R. App. P. 40(a)(1), any petition for rehearing must be filed within 14
days after entry of judgment. Please note, however, that if the appeal is a civil case in
which the United States or its officer or agency is a party, any petition for rehearing must
be filed within 45 days after entry of judgment. Parties should consult both the Federal
Rules and local rules of this court with regard to applicable standards and requirements.
In particular, petitions for rehearing may not exceed 3900 words or 15 pages in length,
and no answer is permitted unless the court enters an order requiring a response. If
requesting rehearing en banc, the requesting party must file 6 paper copies with the clerk,
in addition to satisfying all Electronic Case Filing requirements. See Fed. R. App. P.
Rules 35 and 40, and 10th Cir. R. 35 and 40 for further information governing petitions
for rehearing.
Please contact this office if you have questions.
Sincerely,

Christopher M. Wolpert
Clerk of the Court

Appellate Case: 17-2123

cc:

Document: 010110391761

Jennifer M. Rozzoni
Novaline D. Wilson

CMW/jjh

2

Date Filed: 08/14/2020

Page: 2

